         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Special Report
Management Challenges at the
Department of Energy – Fiscal
Year 2013




DOE/IG-0874                           October 2012
                                  Department of Energy
                                    Washington, DC 20585
                                         October 19, 2012


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: "Management Challenges at the Department of
                          Energy – Fiscal Year 2013"

INTRODUCTION

The Department of Energy is a multi-faceted agency responsible for executing some of the
Nation's most complex and technologically advanced missions. Since the passage of the
Department of Energy Organization Act in 1977, the Department has shifted its emphasis and
priorities over time as the Nation's energy and security needs have evolved. In recent years, the
Department has focused on issues such as clean energy innovation, energy efficiency and
conservation, and science and engineering research and development. While these areas have
received increased attention, the Department has continued its vital work in the areas of
environmental cleanup, nuclear weapons stewardship, and nuclear nonproliferation. In order to
execute this diverse portfolio, the Department receives an annual appropriation approaching $30
billion, employs more than 115,000 Federal and contractor personnel, and manages assets valued
at more than $180 billion, including, among other facilities, 16 Federally Funded Research and
Development Centers.

With this diverse set of agency objectives in mind, on an annual basis, the Office of Inspector
General identifies what it considers to be the most significant management challenges facing the
Department. Now codified as part of the Reports Consolidation Act of 2000, under this effort we
assess the agency's progress in addressing previously identified challenges and consider
emerging issues facing the Department. Consistent with our mission, our goal is to use this
process to advance efforts to work with the Department to enhance the effectiveness of agency
programs and operations.

MANAGEMENT CHALLENGES

Based on the results of our body of work over the last year, we have concluded that the list of
management challenges for Fiscal Year (FY) 2013 should remain largely consistent with that of
the previous year. While positive strides have been made in a number of areas, many of the
Department's most significant management challenges are not amenable to immediate resolution.
Therefore, effective solutions for these challenges may take several years and will require a
concerted effort on many fronts. Most prominently, because of the Department's reliance on
contractor assistance for most of its mission responsibilities, contractor performance is a critical
component in successfully addressing the management challenges. For FY 2013, these
challenges include:

   •   Operational Efficiency and Cost Savings
   •   Contract and Financial Assistance Award Management
   •   Cyber Security
   •   Energy Supply
   •   Environmental Cleanup
   •   Human Capital Management
   •   Nuclear Waste Disposal
   •   Safeguards and Security
   •   Stockpile Stewardship

We also develop an annual "watch list" consisting of significant issues that warrant special
attention by Department officials. For FY 2013, the watch list includes Infrastructure
Modernization, Loan Guarantee Program, and Worker and Community Safety.

It should be noted that Safeguards and Security, a component of the watch list in 2012, is now
considered a key management challenge. This change is primarily due to the recent events at the
Y-12 National Security Complex. In that instance, three trespassers gained access to the area
surrounding the Highly Enriched Uranium Materials Facility at Y-12 and defaced the building
without being interrupted by the security measures in place. Given the policy issues that have
arisen as a result of this intrusion and the importance of ensuring the safe and secure storage of
nuclear materials at Department sites, we have elevated Safeguards and Security to the
management challenges list.

Additional information on the challenge areas can be found at: http://energy.gov/ig/calendar-
year-reports.

                            Operational Efficiency and Cost Savings

For the FY 2012 report, we concluded that the then-current Federal budgetary concerns dictated
that finding ways to make Departmental operations more efficient and less costly was the
preeminent management challenge. In our view, these concerns have actually intensified over
the past year. For this reason, we continue to believe that, looking forward, Operational
Efficiency and Cost Savings should be a top priority for management. As we outlined in last
year's report, we know of no other time in recent memory when there was such a broad,
bipartisan consensus regarding the need to reduce Federal spending and address the Nation's
mounting debt. Significant reductions in Federal budgets appear likely and the impact on the
Department's operations may be equally significant. In this context, we are reiterating the series
of operational efficiency and cost reduction initiatives offered for management's consideration in
last year's report. Our intent was, and continues to be, to highlight possible ways in which the
Department can reduce the overall cost of operations and become more efficient. These topics
include:

   •   Apply the Quadrennial Technology Review (QTR) strategic planning concept to the
       Department's entire science and technology portfolio;
   •   Eliminate duplicative National Nuclear Security Administration (NNSA) functions;
   •   Establish a "BRAC-style" commission to analyze the Department's laboratory and
       technology complex;


                                                2
   •   Reprioritize the Department's environmental remediation efforts; and
   •   Re-evaluate the current structure of the Department's physical security apparatus.

Since issuing our FY 2012 report, several of these proposals have been cited in Congressional
appropriations reports. For instance, concerns that Department of Energy security contracts "are
not uniformly managed, organized, or staffed, which creates concerns about the safety of the
national laboratories as well as fiscal responsibility with taxpayer dollars," were noted in the
Senate Report for the 2013 Energy and Water Development Appropriations Bill. This language
was specifically associated with the language in our 2012 Management Challenges Report.
Further, in the same report, on the subject of duplicative NNSA functions, the Committee
language directed NNSA and the Department "to submit a joint assessment to the Committee by
December 1, 2012 of the costs and benefits of consolidating functions with DOE to reduce costs
and improve communication and program execution to respond to Congressional and Inspector
General concerns." The Department was directed to "propose options for implementing
changes." Separately, in the House Report on the National Defense Authorization Act for FY
2013, the Committee requested that the Department consider the prioritization of environmental
cleanup efforts, as outlined in our report. We cannot predict whether such language will be
incorporated into final appropriations law. However, in our view, the studies called for in these
areas can only serve to increase the existing knowledge base and improve Departmental
operations.

For additional information related to the cost savings measures outlined above, please refer to
our previous report, available at: http://energy.gov/sites/prod/files/IG-0858.pdf.

                                    Management Initiatives

The Department has undertaken a number of management initiatives intended to increase
operational efficiencies. This specifically includes an effort to achieve and sustain a new
framework for "management and operational excellence." In this regard, the Department has
committed to actions such as realigning roles and responsibilities, improving contract and project
management, improving transparency, cutting waste, and increasing cost saving efficiencies. As
part of this broader effort, the Department has outlined a number of operational areas where it
believes improvements are possible and should be pursued. For instance, the Department is
evaluating issues, among others, related to the Department's physical security apparatus,
extension of the QTR, and human capital management. These closely track several of the Office
of Inspector General management challenges.

Clearly, given the current volatility of economic conditions and associated budgetary concerns,
the Department must strive to ensure that operational efficiency is a primary theme in all agency
programs and operations. Although only one step in the process, by aggressively addressing the
management challenges, the Department can enhance program efficiency and effectiveness;
reduce or eliminate operational deficiencies; decrease fraud, waste, and abuse; and achieve
substantial monetary savings. Echoing a conclusion made in the QTR, "limited resources
demand thoughtful and consistent program choices to maximize impact." We look forward to
working with you and agency managers in advancing these goals.


                                                3
cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Acting Under Secretary of Energy
    Chief of Staff
    Acting Chief Financial Officer




                                              4
                                                                    IG Report No. DOE/IG-0874

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
